                  Office of Postsecondary Education, 

           Accrediting Agency Evaluation Unit’s Review of 

        Selected Accrediting Agency Standards and Procedures 





                                 FINAL AUDIT REPORT 





                                            ED-OIG/A09-C0014 

                                                July 2003 





Our mission is to promote the efficiency,                        U.S. Department of Education
effectiveness, and integrity of the                              Office of Inspector General
Department’s programs and operations.                            Sacramento, California
       --




            ~~~1 OFI:IJ:
            ~~        't,i

                                              UNITED STATES DEPARTMENT OF EDUCATION

                                                                   OFFICE OF INSPECTOR GENERAL

                                                                                JUl 2 3 2003
            MEMORANDUM

            TO:                Sally Stroup
                               Assistant Secretary
                               Office of PostsecondaryEducation


            FROM:              Helen Lew Ilelk-       Lotti'll
                               Assistant Inspector General for Audit                                                                                                        .
            SUBJECT:           FINAL AUDIT REPORT -Control Number ED-OIG/A09-COOI4
                               Office of PostsecondaryEducation, Accrediting Agency Evaluation Unit's
                               Review of SelectedAccrediting Agency Standards and Procedures

        Enclosed is the subject final report that covers the results of our review of the Accrediting
         Agency Evaluation Unit managementcontrols for ensuring that accrediting agenciesrecognized
         by the Secretary (1) have establishedstandardsto addresseducational institutions' successwith
        respectto student achievementand measuresof program length, (2) monitor institutions'
        adherenceto the standards throughout their accreditation, and (3) take consistent enforcement
         action when institutions are not in compliance with the standards. An electronic copy has been
        provided to your Audit Liaison Officer. We received your comments non-concurring with
        Finding No.1 and partially concurring with the other findings presented in the draft report. Your
        comments are presented at the end of each finding and included in their entirety as an attachr:nent
        to the report. For the areasof non-concurrence, an OIG responseis included at the end of the
        finding.

        Corrective actions proposed (resolution phase) and implemented (closure phase) by your office
        will be monitored and tracked through the Department's automated audit tracking system. ED
        policy requires that you develop a proposed Corrective Action Plan (CAP) in the automated
        system within 60 days of the issuanceof this report. The CAP should set forth the specific
        action items, and targeted completion dates, necessaryto implement final corrective actions on
        the findings and recommendationscontained in this final audit report.

        In accordance with the Inspector General Act of 1978, as amended,the Office of Inspector
        General is required to report to Congresstwice a year on the number of audits unresolved. In
        addition, any reports unresolved after 180 days from the date of issuancewill be shown as
        overdue in our reports to Congress.

        We appreciate the cooperation given us during this review. If you have any questions, please
        call Gloria Pilotti at (916) 930-2399.

        Enclosure


                                                          400 MARYLAND AVE., S.W. WASHINGTON, D.C. 20202-1510

                             Our mission   is to ensure   equal access   to education   and to promote   educational   excellence   throughout     the Nation.




1__-                                                                                                                   'c                        ",c..,"         ,".",hfti"""""~
                                          Notice

Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report represent the opinions of the Office of Inspector General.
     Determinations of corrective action to be taken will be made by the appropriate
                           Department of Education officials.

In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by the
Office of Inspector General are available, if requested, to members of the press and general
 public to the extent information contained therein is not subject to exemptions in the Act.
                                           TABLE OF CONTENTS 


                                                                                                                                    Page

EXECUTIVE SUMMARY ...........................................................................................................1 


BACKGROUND ............................................................................................................................3 


AUDIT RESULTS .........................................................................................................................4 


     FINDING NO. 1 – AAEU Does Not Require Regional Accrediting Agencies to

        Establish Quantitative Student Achievement Standards for Institutions 

        Offering Vocational Education Programs .......................................................................4 

          Recommendations .............................................................................................................5 

          OPE Comments .................................................................................................................5

          OIG Response ....................................................................................................................6 


     FINDING NO. 2 – AAEU Has Limited Written Procedures and Documentation 

        Addressing Its Evaluations of Accrediting Agency Standards and Procedures ..........6 

          AAEU Has Limited Written Procedures and Other Guidance for Use in 

            Conducting Evaluations ..............................................................................................7 

          AAEU Does Not Require Specialists to Fully Document Their Evaluations..............11 

          AAEU Reports Did Not Identify Limitations or Weakness Noted 

            In OIG Reviews ..........................................................................................................12 

          Recommendations ............................................................................................................13 

          OPE Comments ...............................................................................................................13 

          OIG Response ..................................................................................................................14 


     FINDING NO. 3 – AAEU Has No Documented Supervisory Review Process 

          and Relies on Individual Specialists’ Evaluations .................................................15 

          Recommendations ...........................................................................................................15 

          OPE Comments ...............................................................................................................16 

          OIG Response ..................................................................................................................16 


     FINDING NO. 4 – AAEU Specialists Do Not Contact Other Department Units and 

          Agencies ......................................................................................................................16 

          Recommendation..............................................................................................................17 

          OPE Comments ...............................................................................................................17 

          OIG Response ..................................................................................................................17 

                                 TABLE OF CONTENTS
                                             (Continued)


                                                                                                   Page


OBJECTIVE, SCOPE, AND METHODOLOGY ....................................................................18 


STATEMENT ON MANAGEMENT CONTROLS .................................................................19 


ATTACHMENT 1 – Summary of OIG Suggestions Made to Selected Accrediting 

Agencies for Enhancing Standards and Strengthening Management Controls ...................20 


ATTACHMENT 2 – OPE Comments on the Draft Report ....................................................25 

ED-OIG/A09-C0014	                                                                       Page 1 of 29




                                EXECUTIVE SUMMARY


The Accrediting Agency Evaluation Unit (AAEU), within the U.S. Department of Education,
Office of Postsecondary Education (OPE), needs to improve management controls over its
evaluations of accrediting agencies recognized by the Secretary. The improvements are needed to
ensure that the accrediting agencies have established standards to address institutions’ success with
respect to student achievement and measures of program length, and that the agencies monitor
adherence to the standards and take enforcement action when institutions are not in compliance with
the standards.

When evaluating accrediting agencies, AAEU did not require regional agencies to establish
quantitative student achievement standards for educational institutions offering vocational education
programs. Federal regulations state that accreditation standards for student achievement should
include quantitative standards, such as job placement, when appropriate. The Secretary advised
accrediting agencies that such quantitative standards should be established for vocational education
programs. According to the Unit Chief, AAEU’s policy was to require national accrediting agencies
to have quantitative standards, but to not require such standards for regional accrediting agencies.

AAEU did not meet the minimum level of quality for management controls as defined in the General
Accounting Office publication Standards for Internal Control in the Federal Government (GAO’s
Internal Control Standards), dated November 1999.1 Thus, there is no assurance that AAEU
evaluated accrediting agency standards and procedures in a consistent and effective manner.
       AAEU has limited written procedures and other guidance and does not require specialists to
        fully document their evaluations. We also found that AAEU specialists did not report
        limitations and weaknesses noted in OIG reviews conducted at individual accrediting
        agencies.
       AAEU has no documented supervisory review process and relies on individual specialists’
        evaluations and decisions for recognition recommendations. AAEU’s reliance on individual
        specialists may impact the quality and thoroughness of the evaluations, as well as the
        integrity of the process.
       AAEU does not contact other Department units, state licensing agencies, or other agencies as
        part of the evaluations. Direct contact with these agencies and Departmental units could alert
        AAEU specialist to weaknesses in accreditation standards and the accrediting agency’s
        procedures for monitoring and enforcing its standards at accredited institutions.

We recommend that the Assistant Secretary for the Office of Postsecondary Education ensure that
AAEU does not recommend any accrediting agencies for recognition by the Secretary that accredit
institutions offering vocational programs unless the agency has established quantitative standards for
student achievement. We also recommend that the Assistant Secretary ensure that AAEU develops
and implements additional written procedures for its specialists to use in conducting evaluations of
accrediting agencies and takes other actions to improve its management controls.

1
 The term “internal controls” used in the GAO publication is synonymous with the term “management
controls.”
ED-OIG/A09-C0014                                                                     Page 2 of 29


In its comments on the draft report, OPE did not concur with our finding and recommendations
concerning its policy on quantitative standards for student achievement. OPE generally concurred
with our procedural recommendations to improve AAEU’s management controls, except it did not
agree with recommendations related to site visits and institutional file reviews, and documenting
AAEU specialists’ conclusions. Also, OPE is evaluating alternatives to our recommendation that
specialists contact other Department units and state agencies as part of their evaluations. OPE’s
comments on the draft report are summarized at the end of each finding and included in their entirety
as ATTACHMENT 2.
ED-OIG/A09-C0014	                                                                          Page 3 of 29




                                        BACKGROUND 


Postsecondary educational institutions must be accredited by an accrediting agency recognized by
the Secretary of the U.S. Department of Education in order to participate in the Higher Education
Act of 1965 as amended (HEA), Title IV programs. To be recognized by the Secretary, accrediting
agencies must demonstrate that they are reliable authorities regarding the quality of education or
training offered by the institutions or programs they accredit. The Secretary may recognize an
accrediting agency for a period of up to five years. The Secretary recognizes 39 accrediting agencies
for HEA, Title IV purpose.

Section 496 of the HEA authorizes the Secretary to establish criteria for making such a
determination. Section 496(a)(5) lists the criteria required, including that the agency’s standards
of accreditation assess an institution’s (1) success with respect to student achievement in relation
to the institution’s mission, including, as appropriate, consideration of course completion, state
licensing examinations, and job placement rates; and (2) measures of program length and the
objectives of the degrees or credentials offered.

The regulations at 34 C.F.R. Part 602 implement the provisions of § 496. Among other
requirements, the regulations require that accrediting agencies recognized by the Secretary—
       Reevaluate institutions at regular intervals and monitor institutions throughout their
        accreditation period to ensure that the institutions remain in compliance with the agency’s
        standards, including adequate substantive change policies;
       Take enforcement action within specified time frames when an institution is not in

        compliance with the agency’s standards; and 

       Maintain a systematic program of review that demonstrates that the agency’s standards are
        adequate to evaluate the quality of the education or training provided by the institutions it
        accredits and relevant to the educational or training needs of students.

Section 496(n)(1) requires that the Secretary conduct a comprehensive review and evaluation of the
performance of an accrediting agency in order to determine whether the agency meets the
established criteria and other requirements. AAEU is the unit within the Department’s Office of
Postsecondary Education that is responsible for conducting evaluations of accrediting agencies’
standards of accreditation and operating procedures. Based on those evaluations, AAEU provides an
analysis of the application to the National Advisory Committee on Institutional Quality and Integrity
(NACIQI), which in turn advises the Secretary.2 AAEU staff includes the Unit Chief and six
specialists.




2
  NACIQI is composed of 15 members appointed by the Secretary of Education and meets twice a year. At
the meetings, NACIQI considers accrediting agencies’ applications for recognition and hears oral
presentations by Department staff and other interested parties. When its review is concluded, NACIQI
recommends that the Secretary either approve or deny recognition, or that the Secretary defer a decision.
ED-OIG/A09-C0014                                                                       Page 4 of 29




                                     AUDIT RESULTS 



The objective of the audit was to evaluate AAEU’s management controls for ensuring that
accrediting agencies recognized by the Secretary (1) have established standards to address
educational institutions’ success with respect to student achievement and measures of program
length, (2) monitor institutions’ adherence to the standards throughout their accreditation, and
(3) take consistent enforcement action when institutions are not in compliance with the standards.

We found that AAEU policies do not require regional accrediting agencies to establish quantitative
student achievement standards for institutions offering vocational education programs. We also
found that AAEU needs to improve its procedures for conducting evaluations of accrediting
agencies’ standards and procedures. AAEU has limited written procedures and documentation
addressing its evaluations of accrediting agency standards for student achievement and program
length and accrediting agency procedures for monitoring and enforcing the standards. AAEU has no
documented supervisory process and relies on individual specialists’ evaluations and recognition
recommendations. AAEU specialists do not contact other Department units or other agencies prior
to evaluating an accrediting agency for renewal of its recognition by the Secretary. Without
adequate written procedures, documentation, supervision, staffing, and communications, there is no
assurance that AAEU is evaluating accrediting agency standards and procedures in a consistent
and effective manner.



FINDING NO. 1 – AAEU Does Not Require Regional Accrediting Agencies to
                Establish Quantitative Student Achievement Standards for
                Institutions Offering Vocational Education Programs

AAEU does not require regional accrediting agencies to establish quantitative student achievement
standards for vocational education programs offered by accredited institutions. The regulations at
34 C.F.R. § 602.16(a)(1)(i) state that agencies must have an accreditation standard addressing—
       Success with respect to student achievement in relation to the institution’s mission,
       including, as appropriate, consideration of course completion, State licensing
       examination, and job placement rates.
In the preamble to the 1994 final regulations and the preamble to the 1999 proposed rules, the
Secretary advised accrediting agencies—
       For programs that provide vocational education, agencies should establish
       quantitative standards for completion rates, job placement rates, and pass rates on
       State licensing examinations.
ED-OIG/A09-C0014	                                                                           Page 5 of 29


The two national accrediting agencies included in our review had quantitative standards for student
achievement, but the two regional accrediting agencies did not have such standards for institutions
they accredited that offer vocational education programs.3 The accreditation standards used by the
two regional accrediting agencies relied on the individual institutions to develop assessment
programs and document the institution success with respect to student achievement.

According to the Unit Chief, AAEU did not require regional accrediting agencies to have
quantitative standards for vocational education programs because the preamble language did not
apply to regional accrediting agencies. The preamble language makes no distinction between
regional and national accrediting agencies.

Students enroll in vocational training programs offered by accredited institutions with the
expectation of obtaining gainful employment upon graduation. Setting quantitative standards and
monitoring adherence to those standards enables an accrediting agency to assess and improve the
effectiveness of accredited institutions to meet student expectations.

Recommendations

1.1 	 We recommend that the Assistant Secretary for Postsecondary Education develop an HEA
      reauthorization proposal that clarifies and requires that every accrediting agency establish
      quantitative standards for student achievement in vocational programs.

Also, we recommend that the Assistant Secretary for Postsecondary Education ensure that AAEU:

1.2. 	   Does not recommend to NACIQI any accrediting agencies for recognition by the Secretary
         that accredit institutions offering vocational programs unless the agencies have established
         quantitative standards for student achievement.
1.3 	    Notifies all accrediting agencies that their accreditation standards must include quantitative
         student achievement standards for institutions offering vocational programs.
1.4 	    Promptly identifies the accrediting agencies whose accreditation standards do not include
         quantitative student achievement standards for institutions offering vocational programs, and
         notifies NACIQI of recommended corrective action.

OPE Comments

OPE acknowledged that requiring the reporting of student achievement data would provide useful
information on program quality to accrediting agencies and the public. However, OPE did not
concur with the finding or the recommendations. In its response to the draft report, OPE stated that
both OPE’s current interpretation of the HEA and regulations and the OIG’s interpretation were
permissible under the current law. Thus, the decision as to which interpretation to implement was a
policy matter. OPE stated that implementing the OIG’s recommendations would reverse ten years of


3
 The 39 accrediting agencies recognized by the Secretary for Title IV purposes are comprised of 29 national
accrediting agencies and 10 regional accrediting agencies. (Six of the regional agencies accredited degree-
granting institutions). We selected 2 of the 29 national agencies and 2 of the 6 regional agencies that
accredited degree-granting institutions. The four accrediting agencies are identified on ATTACHMENT 1.
ED-OIG/A09-C0014                                                                          Page 6 of 29


interpretation of law and regulations and it preferred to defer action in this area until reauthorization
of the HEA.

OIG Response

Our finding and recommendations remain unchanged. Students enrolled in vocational training
programs have the same expectation of obtaining gainful employment whether the institution
offering the program is accredited by a regional or national accrediting agency. Thus, regional and
national accrediting agencies should be held to the same requirement of quantitative standards for
student achievement. Given its acknowledgement of the usefulness of achievement data, we agree
with OPE that this issue can also be addressed during reauthorization. We added a recommendation
that OPE develop an HEA reauthorization proposal that specifically requires all agencies to establish
quantitative standards for student achievement in vocational programs.



FINDING NO. 2 –AAEU Has Limited Written Procedures and Documentation
               Addressing Its Evaluations of Accrediting Agency Standards
               and Procedures

AAEU has not established adequate management controls over its evaluations of accrediting
agencies’ standards and procedures. We found that AAEU did not meet minimum levels of
management controls because it had limited written procedures and other guidance, and did not
require specialists to fully document their evaluations. Without adequate written procedures and
documentation, there is no assurance that the specialists are evaluating accrediting agency standards
and procedures in a consistent and effective manner. Also, we found that AAEU specialists did not
report limitations and weaknesses noted in OIG reviews.

The regulations at 34 C.F.R. § 602.31(b) and (c) describe the procedures that Department staff are
to use when evaluating accrediting agencies for recognition by the Secretary.

       (b) Department staff analyzes the agency’s application to determine whether the
       agency satisfies the criteria for recognition, taking into account all available relevant
       information concerning the compliance of the agency with those criteria and any
       deficiencies in the agency’s performance with respect to the criteria. The analysis
       includes—
          (1) Site Visits, on an announced or unannounced basis, to the agency and, at the
       Secretary’s discretion, to some of the institutions or programs it accredits or
       preaccredits...
       (c) Department staff’s evaluation may also include a review of information directly
       related to institutions or programs accredited or preaccredited by the agency relative
       to their compliance with the agency’s standards, the effectiveness of the standards,
       and the agency’s application of those standards.
ED-OIG/A09-C0014	                                                                              Page 7 of 29


The regulations at 34 C.F.R. § 602.31(e) state that Department staff will document the evaluation:
        [W]hen Department staff completes its evaluation of the agency, the staff—
          (1) 	 Prepares a written analysis of the agency, which includes a recognition
                recommendation. . . .

Office of Management and Budget (OMB) Circular A-123 on Management Accountability and
Control (June 21, 1995) requires that Federal agencies and individual Federal managers take
systematic and proactive measures to develop and implement appropriate, cost-effective
management controls for results-oriented management. The Circular states that “[m]anagement
controls are the organization, policies, and procedures used to reasonably ensure that (i) programs
achieve their intended results; (ii) resources are used consistent with agency mission; (iii) programs
and resources are protected from waste, fraud, and mismanagement; (iv) laws and regulations are
followed; and (v) reliable and timely information is obtained, maintained, reported and used for
decision making.”

The GAO’s Internal Control Standards defines the minimum level of quality acceptable in internal
controls in government and provides the basis against which internal controls are to be evaluated.
The standards apply to all aspects of an agency’s operations: programmatic, financial, and
compliance. GAO’s Internal Control Standards states that management is responsible for
developing the detailed policies, procedures, and practices to fit their agency’s operations and to
ensure that they are built into and an integral part of operations.” The standards state that “[I]nternal
controls... need to be clearly documented, and the documentation should be readily available for
examinations.”

AAEU Has Limited Written Procedures and
Other Guidance for Use in Conducting Evaluations

AAEU has only limited written procedures or other guidance for implementing its responsibilities
outlined in 34 C.F.R. § 602.31(b), (c), and (e), and reviewing changes in standards or procedures
during an accrediting agency’s recognition period. The written procedures and guidance available
consisted of the regulations, AAEU’s Checklist for Analysis of Accrediting Agencies’ Petitions for
Recognition (Checklist), and the text of two presentations by a former AAEU chief entitled “Student
Achievement” and “Validity and Reliability.” 4 AAEU has no written procedures or other guidance
for conducting site visits, reviewing information directly related to institutions or programs
accredited by the agency, or reviewing changes in an accrediting agency’s standards or procedures
during its recognition period.
Checklist Is Inadequate for Reviews of Accrediting Agencies’ Standards. The Checklist provided
specialists with little, if any, guidance for evaluating accrediting agency standards. The regulation at
34 C.F.R. § 602.16(a) states—




4
  The text of the presentation titled “Validity and Reliability” addresses the change in the regulations, issued
October 20, 1999, which changed the terms used to describe the requirements of the accrediting agency’s
program of review. The previous regulations required the program of review to demonstrate that accreditation
standards were “valid” and “reliable. The current regulations use the terms “adequate” and “relevant.”
ED-OIG/A09-C0014                                                                         Page 8 of 29


       The [accrediting] agency must demonstrate that it has standards for accreditation...
       that are sufficiently rigorous to ensure that the agency is a reliable authority regarding
       the quality of the education and training provided by the institutions and programs it
       accredits. The agency meets this requirement if— (1) The agency’s accreditation
       standards effectively address the quality of the institution or program in the following
       areas.... [Emphasis added.]

The regulation at 34 C.F.R. § 602.21(a) states—

       The agency must maintain a systematic program of review that demonstrates that its
       standards are adequate to evaluate the quality of the education or training provided by
       the institutions and programs it accredits and relevant to the educational or training
       needs of students.” [Emphasis added.]

Thus, standards for the listed areas must be effective and adequate for evaluating the quality of
accredited institutions and programs, and relevant to the needs of students enrolled in those
institutions and programs.

The Checklist contained the full text of 34 C.F.R. § 602.16, for the ten areas that must be addressed
by an accrediting agency’s standards along with review indicators for each area. The review
indicators were basically the same for each area. For student achievement and program length, the
review indicators were:
      The agency has established a reasonable and appropriate threshold for quality in the area of
       success with respect to student achievement, i.e. there is a plausible rationale for the standard
       rooted in educational quality.
      The agency has established a reasonable and appropriate threshold for quality in the area of
       measures of program length, i.e. there is a plausible rationale for the standard rooted in
       educational quality.

The Checklist does not define the terms: reasonable and appropriate threshold for quality, plausible
rationale, or rooted in educational quality. Also, the Checklist does not provide guidance for
applying the terms during an evaluation to determine that the accreditation standards are effective,
adequate, and relevant. For example, the Checklist does not provide guidance on how a specialist
should evaluate the standards on program length for the four accrediting agencies we reviewed.

      One regional accrediting agency’s standard for undergraduate programs stated that “[a]n
       institution must clearly define what is meant by a major or an area of concentration and must
       state the number of credits required for each. An adequate number of hours with appropriate
       prerequisites must be required in courses above the elementary level.” The standard also
       stated that “[t]he institution must demonstrate that program length, clock hours or credit
       hours, and tuition and fee charges are appropriate for the degrees and credentials it offers.”
       Neither the accrediting agency’s standards nor other documents defined or provided criteria
       for a “credit hour.”

      The other regional accrediting agency’s standard was primarily addressed within its general
       requirement that “[The institution’s] degrees are appropriately named, following practices
       common to institutions of higher education in terms of both length and content of the
ED-OIG/A09-C0014                                                                        Page 9 of 29


       programs.” In addition, the agency’s Handbook of Accreditation required institutions to be
       able to equate their learning experiences with semester or quarter credit hours using practices
       common to institutions of higher education; justify the lengths of their programs in
       comparison to similar programs found in accredited institutions of higher education; and
       explain in their catalogs, student handbooks, or self-studies, how the institutions calculate
       equivalencies, if they do not use semester or quarter credit hours as the basic measure of their
       learning experiences. The handbook did not explain what was considered “common practice”
       for institutions of higher education, the basis for determining that programs are similar, or
       acceptable calculation of equivalencies.

      One national accrediting agency’s standard stated “the length of each program offered by the
       school is appropriate to enable students to achieve the program objectives and to acquire the
       knowledge and skills necessary for initial employment in the field for which training is
       provided. The agency’s standard specified minimum length in credit hours for occupational
       associate degrees, academic associate degrees, and baccalaureate degrees, but did not specify
       a minimum length for vocational non-degree granting programs. The other national
       accrediting agency required institutions to meet state minimum requirements for program
       length and specified a model to be used to assess program lengths in excess of the state
       minimum. Both accrediting agencies defined a credit hour in terms of the amount of
       instruction required, but neither specified the amount of outside preparation a student should
       be expected to complete for each credit hour.

For evaluating accrediting agencies’ standards for success with respect to student achievement, the
text of AAEU’s presentation titled “Student Achievement” described a framework that would be
used by the specialists:

       Our “framework” is to see if (1) the agency has a real standard for success with
       respect to student achievement and it is clear, (2) the standard is numerical, if that’s
       appropriate, or contains numerical aspects, if that’s appropriate, (3) the agency’s
       approach to the assessment of success with respect to student achievement is multi-
       dimensional, (4) the agency’s approach contains all of what would generally be
       accepted as appropriate components, given the nature of the agency, the type of
       institutions and programs, and the field, (5) the agency makes appropriate use of
       success with respect to student achievement in its accrediting decisions, its
       monitoring of institutions and programs, and its efforts to require institutions and
       programs to apply the results toward improving quality of education, and (6) there is
       evidence that the agency’s standards for success with respect to student achievement
       are in fact effective.

The described framework contains steps for evaluating the effectiveness, adequacy, and relevance of
an accrediting agency’s student achievement standard. However, there is no assurance that AAEU
specialists applied the framework since the steps were not incorporated into the Checklist. For
evaluating accreditation standards on measures of program length, AAEU provided the specialists
with no additional guidance.

Checklist Is Inadequate for Review of Accrediting Agency’s Policies and Procedures. While
the Checklist generally covered the required accrediting agency policies and procedures, it
did not fully address the regulation at 34 C.F. R. § 602.21(a) concerning the accrediting
ED-OIG/A09-C0014                                                                                           Page 10 of 29


agency’s systematic program of review. The Checklist contained the review indicator “There
is evidence that the agency’s standards are widely accepted as adequate to evaluate
educational quality and relevant to the educational or training needs of student.” The fact
that accreditation standards are “widely accepted” does not in itself fully address the
requirement in the regulation that the systematic program of review demonstrates that
accreditation standards are adequate and relevant.

Also, the review indicator does not adequately reflect the steps described in the text of the
presentation “Validity and Reliability.” The presentation, which described the framework that
AAEU would use to evaluate an accrediting agency’s systematic program of review, states that
AAEU would look for “evidence that the agency’s systematic program of review is in fact effective,
i.e. [ensures that standards are] adequate to measure quality and relevant to the education needs of
student.”

No Guidance Provided for Site Visits and Reviews of Institutional Files and Other Information.
AAEU has not provided its specialists with guidance on the type or number of site visits to be
conducted as part of the evaluations, or when specialists should include reviews of institutional
information. Our work for the four reviewed accrediting agencies found that the specialists’ site
visit activities varied among the accrediting agencies.

                                                                           Accrediting Agency
                             Activity                        Regional       Regional      National National
                                                               #1             #2            #1       #2
        Number of accrediting agency
                                                                  1             ---            1            2
        commission meetings attended
        Reviewed institutional files at the
                                                                  ---           ---          Yes           Yes
        accrediting agency
        Number of observed accrediting agency
                                                                  ---            1             4            3
        site visits to institutions (a)
         (a)
               Since this activity is at the institution, it does not meet the regulatory requirement that the
                Department staff have site visits to the accrediting agency.


As shown in the above table under Regional #2, one specialist did not make at least one site visit to
the accrediting agency as required by 34 C.F.R. 602.31(b)(1). Also, we found that AAEU did not
have procedures for specialists to use when visiting accrediting agencies, attending commission
meetings, reviewing institutional file, or observing the accrediting agencies’ institutional site
reviews.

No Procedures for Conducting Reviews of Changes in Standards and Procedures Made During the
Recognition Period. The regulation at 34 C.F.R. § 602.27(d) requires accrediting agencies to submit
to the Department “[a]ny proposed change in the agency’s policies, procedures, or accreditation
standards that might alter its— (1) Scope of recognition; or (2) Compliance with the criteria for
recognition....” AAEU has no written procedures for reviewing proposed changes in standards or
procedures submitted during the agency’s recognition period or confirming that accrediting agencies
appropriately addressed AAEU’s comments provided on the changes.
ED-OIG/A09-C0014                                                                          Page 11 of 29


One of the accrediting agencies in our review was conducting a systematic program of review and
reorganization of its standards at the time the AAEU specialist conducted the review for renewal of
the agency’s recognition. According to the Unit Chief, the accrediting agency submitted the
proposed standards as required by the regulations and the AAEU specialist provided verbal
comments to the accrediting agency. However, we found no evidence of this activity in AAEU’s file
since the specialist did not document either the review or discussion with the accrediting agency.
Also, the specialist did not subsequently review the finalized standards. Since AAEU has no written
procedures for reviewing changes made during the recognition period, there is no assurance that
such reviews are done or that the review are thorough and consistent, and the specialists’ comments
on proposed changes were addressed in the implemented standards or procedures.

AAEU Does Not Require Specialists to
Fully Document Their Evaluations

The HEA § 496(n)(4) states that “[t]he Secretary shall maintain sufficient documentation to support
the conclusions reached in the recognition process. . . .” GAO’s Internal Control Standards states
that “all transactions and other significant events need to be clearly documented, and the
documentation should be readily available for examination” and that “[a]ll documentation and
records should be properly managed and maintained.”

The only documents prepared by the specialists that we found in the AAEU files for the four
accrediting agencies were the reports submitted to the NACIQI. We found that the AAEU
specialists did not fully document the basis for their determinations that the accrediting agencies met
the regulations in the AAEU reports. For the most recently renewed accrediting agency, the AAEU
specialist located in his personal records the completed Checklist and the Regulation
Compliance/Documentation Summary Table that was prepared to link the Checklist elements to the
accrediting agency documents used in the evaluation.5 The Checklist and summary table also did
not document the basis for the specialist’s determination.

AAEU Reports to NACIQI on Renewal of Recognition. The AAEU reports for the four reviewed
accrediting agencies generally summarized the standards and procedures described in the accrediting
agencies’ petition and exhibits submitted with the petition. The AAEU reports also disclosed the
commission/decision meetings and institutional site reviews attended and institutional file reviews
conducted by the specialists.

The AAEU report for the accrediting agency with the most recent renewal of recognition, which
recommended renewal of recognition for a period of five years, did not state the specialist’s
determination on individual requirements or the basis for his overall determination that the agency
“substantially complies with the Criteria for Recognition.” Also, the report did not address two
areas specified in the regulations: 34 C.F.R. § 602.22 Substantive change and 34 C.F.R. § 602.20
Enforcement of standards. While the completed Checklist documented the specialist’s
determinations on the individual requirements, including the two cited regulations, this information
was not communicated to NACIQI. We also found that the report did not explain the specialist’s

5
  According to the Unit Chief, AAEU specialists began using the Checklist in Fall 2000 to document their
evaluations of accrediting agency standards and procedures. The evaluation of one of the four accrediting
agencies occurred after implementation of the Checklist. Previously, AAEU specialists did not use a standard
form during their evaluations.
ED-OIG/A09-C0014                                                                       Page 12 of 29


basis for the type and number of site visits, the information gained from the one site visit conducted,
or how the information gained from the site visit was used in the evaluation.

The AAEU reports for the other three accrediting agencies were prepared using a former report
format. These reports presented the specialists’ determination on individual requirements, but did
not explain the basis for their determination for one or more of the requirements. Two of the reports
described how information gained from site visits or file reviews were used in their evaluation for
only one or two of the requirements and the other report made no mention of such information.

Specialist Completed Checklist/Summary Table. The completed Checklist for one accrediting
agency had an “X” in the box next to each review indicator and referenced the documents provided
in the accrediting agency’s petition for renewal that were used by the specialist in making the
determination. The review indicators, which consisted primarily of “yes/no” statements, did not
prompt the specialist to explain the basis. For example, the Checklist included the statement “The
agency has demonstrated that it follows its substantive change policy,” rather than, “How did the
agency demonstrate that it followed its substantive change policy?” The summary table listed the
regulation section and the documentation reviewed for the section, but provided no information
explaining the basis for the specialists’ determination.

AAEU Reports Did Not Identify Limitations or
Weaknesses Noted in OIG Reviews

The AAEU reports on renewal of recognition for the four accrediting agencies did not address the
limitations and management control weaknesses found in the OIG reviews of the individual
agencies. Also, we did not agree with an AAEU specialist’s conclusion on an accrediting agency’s
interim report.

None of the AAEU reports for the four accrediting agencies addressed the limitations and
management control weaknesses found in the OIG reviews.6 For example, one OIG review found
that an accrediting agency’s policy on institutions reporting substantive changes did not address
changes from clock to credit hours and substantial increases in clock or credit hours. The review
also found that the agency’s policy on reporting changes in educational delivery method only
addressed degree programs offered through distance delivery methods. Although the standards had
not changed, the AAEU report on the accrediting agency’s petition for continued recognition did not
mention these deficiencies. Even though the specialists’ evaluations were conducted at different
times than ours, the specialists should have identified some of the limitations and management
control weakness identified in our reviews.

Three of the four accrediting agencies were required to submit interim reports as a condition of their
renewal of recognition by the Secretary. AAEU specialists reviewed the interim reports and
provided NACIQI with the status of corrective actions. For one of the accrediting agencies, we
disagreed with the specialist’s conclusion that the accrediting agency had taken the necessary
corrective actions. The agency was required to submit an interim report to demonstrate that it
tracked and evaluated state licensing examination pass rates. We found that the accrediting agency
was collecting state licensing examination data from its institutions, but had not established a


6
  ATTACHMENT 1 summarizes the suggestions for improving standards and management controls
presented in the OIG Management Information Reports for the four reviewed accrediting agencies.
ED-OIG/A09-C0014	                                                                       Page 13 of 29


standard for state licensing examination pass rates or begun evaluating institutional performance to
that standard.

Recommendations

We recommend that the Assistant Secretary for Postsecondary Education require that AAEU:
2.1 	   Develop and implement additional written procedures for AAEU specialists to use in
        conducting evaluations of accrediting agencies for recognition by the Secretary. The written
        procedures should include, but not be limited to—
           Guidance tailored to each required standard, including student achievement and
            program length,
           Definitions and examples for terms, such as “appropriate threshold for quality” and
            “plausible rationale,” and
           Guidance on number and type of site visits and institutional file reviews to be conducted
            in evaluations and how the site visits and file reviews should be documented and used
            in the evaluations.
        To facilitate development of the procedures, we suggest that AAEU conduct a
        self-assessment using the GAO’s Internal Control Management and Evaluation Tool.

2.2 	   Develop and implement additional written procedures for AAEU specialists to use in
        conducting evaluations of accrediting agencies’ interim reports and changes in standards and
        procedures submitted during an accrediting agency’s recognition period.

2.3 	   Expand the section of its Checklist covering the accrediting agency’s systemic program of
        review to fully address 34 C.F.R. § 602.21 and the presentations titled “Student
        Achievement” and “Validity and Reliability.”

2.4 	   Revise the Checklist to prompt the specialists to document after each requirement their
        conclusion and the basis for concluding that the accrediting agency met or did not meet the
        specific regulation.

2.5 	   Require its specialists to prepare a written evaluation plan, identifying the overall approach,
        areas of special concern and purpose, number and type of site visits and file reviews.

2.6 	   Retain in its files the completed Checklists and other specialist-prepared documents used to
        support the specialists’ evaluations.

OPE Comments

In its response to the draft report, OPE partially concurred with our recommendations to improve
AAEU management controls. OPE stated that it is reluctant to stipulate the number of site visits and
institutional file reviews necessary for an evaluation since the need for these activities varies with
the particular circumstances of each accrediting agency and may not be known until the review is
underway. OPE did not concur with our recommendation to revise the Checklist to prompt
specialists to document their conclusions and basis for the conclusions for each requirement. OPE
stated that this recommendation would significantly increase staff workload while not necessarily
ED-OIG/A09-C0014                                                                        Page 14 of 29


adding to the quality of the staff analysis. OPE stated that NACIQI had requested that staff analysis
be streamlined and that the multiple levels of supervisory review of draft analyses and the multi-step
decision-making process followed ensure appropriate identification and review of those areas where
the analyst determines the agency to be in compliance. OPE has reserved comment on our
recommendation to retain completed Checklists and other specialist-prepared documents in its files.
OPE expressed concern that such documents could be viewed as public documents and, as such, be
subject to requests under the Freedom of Information Act. OPE also stated that the intent of its
process is to work with an agency to bring it into compliance and that the process protects the
agency from public release of potentially embarrassing information that is subsequently corrected.
OPE is seeking an opinion from the Department’s Office of General Counsel on this matter. OPE
agreed to take action on the other recommendations.

OIG Response

Our recommendations remain unchanged. While we agree that AAEU should not stipulate a specific
number or type of site visits and institutional file reviews for each evaluation, it should provide
specialists with general guidance to use when making their decisions on site visits and file reviews.
As mentioned in the report, our review of the evaluations for the four accrediting agencies found that
the specialists’ site visit activities varied among the accrediting agencies and, in one case, the
specialist did not make at least one site visit to the accrediting agency as required by the regulations.
By issuing general guidance, AAEU procedures would provide a higher level of assurance that the
specialists’ evaluations provide consistent coverage of the accrediting agencies’ activities and that
the specialists comply with applicable regulations.

We do not agree with OPE’s statement that requiring specialists to document their conclusion and
basis for that conclusion for each requirement would significantly increase staff workload. AAEU
specialists are already required, as part of the evaluation process, to reach conclusions as to an
accrediting agency’s adherence to each of the specific regulatory requirements. In order to reach
such a conclusion, the specialists would need to form a basis for the conclusion. Thus, the only
additional step added by our recommendation is the documentation of the conclusion and basis.
AAEU specialists that have performed an adequate evaluation should require little additional time to
prepare a brief written explanation of the basis for their conclusions.

We disagree with OPE’s statement that requiring specialists to document conclusions and the basis
for the conclusions would not necessarily add to the quality of the evaluation. The process of
articulating the basis in writing would provide the specialists with an opportunity to review their
conclusions. Also, the documentation would facilitate and enhance the effectiveness of supervisory
reviews to ensure that the analyses were thorough and consistent with analyses of other accrediting
agencies, and that specialists’ conclusions were appropriate. The retention of the documentation in
AAEU files is needed to comply with the HEA requirement to maintain sufficient documentation to
support the conclusions reached in the recognition process. We disagree with OPE’s position that
documents prepared by specialists should not be retained in order to protect agencies from potential
embarrassment.
ED-OIG/A09-C0014	                                                                    Page 15 of 29



FINDING NO. 3 – AAEU Has No Documented Supervisory Review Process and
                Relies on Individual Specialists’ Evaluations

AAEU has no documented supervisory review process. Also, AAEU relies on an individual
specialist to evaluate an accrediting agency’s standards and procedures. GAO’s Internal Control
Standards states “[q]ualified and continuous supervision should be provided to ensure that internal
control objectives are achieved.” The Standards also state “[n]o one individual should control all key
aspects of a transaction or event” and that management has a key role in “removing temptations for
unethical behavior.”

Supervisory Reviews. AAEU has no written procedures for supervisory review of the specialists’
work or decisions. According to the Unit Chief, a documented review process was not needed since
the specialists were experienced and exercise good judgment. The Unit Chief stated that she
reviewed draft AAEU reports prior to sending the reports to the accrediting agency for comment.
For the four reviewed accrediting agencies, AAEU files contained no evidence that a review was
performed or that the supervisor agreed or disagreed with the specialists’ determinations.

AAEU could improve its management controls by implementing a documented supervisory review
process that includes reviews of the specialists’ evaluation plans prior to implementation, the
completed Checklist documenting the specialists’ conclusions, draft reports sent to accrediting
agencies, reports to NACIQI, and other specialist-prepared forms and reports. To facilitate
documentation of supervisory reviews, AAEU could add a section to the Checklist for the Unit Chief
to document her review of the specialist’s conclusions and basis for the conclusions. Also, AAEU
could develop a form for the Unit Chief to use in documenting her review and approval of draft
AAEU reports.

Reliance on Individual Specialist. AAEU assigns one specialist to perform the review of an
accrediting agency’s petition for recognition. The specialist makes the decision on whether the
accrediting agency has the required accreditation standards and procedures for monitoring and
enforcing the standards. AAEU’s reliance on individual specialists may impact the quality and
thoroughness of the evaluations.

We are also concerned that assigning one specialist the responsibility for designing and conducting
the entire review, with minimal supervision, could subject the specialist to undue influence by the
accrediting agency being reviewed. While we found no indications that AAEU specialists were
subject to undue influence by accrediting agency officials, management does have the responsibility
to mitigate, when possible, an employee’s exposure to such potential influence.

Recommendations

We recommend that the Assistant Secretary for Postsecondary Education require that AAEU:

3.1 	   Ensure that supervisory reviews are performed and written procedures for conducting and
        documenting the review are implemented, including documenting whether the supervisor
        agrees or disagrees with the specialists’ determinations.
ED-OIG/A09-C0014	                                                                        Page 16 of 29


3.2 	   Has more than one specialist on site when conducting accrediting agency site visits and
        observing accrediting agency institutional reviews.

OPE Comments

In its response to the draft report, OPE agreed to document procedures for supervisory reviews, but
did not agree with our recommendation to have more than one specialist present when conducting
accrediting agency site visits and observing accrediting agency institutional reviews. OPE stated
that such decisions are better made on a case-by-case basis.

OIG Response

Our recommendation remains unchanged. Supervisory reviews may mitigate the risks associated
with assigning a sole specialist to perform the evaluation of an accrediting agency’s written
standards and procedures. However, given the critical role of accreditation in the oversight of
programs authorized by the HEA, such reviews do not provide sufficient oversight of the specialist’s
activities and decisions while conducting site visits and file reviews. Also, by assigning only one
specialist for site visits, the Department has not met its obligation to remove temptations for
unethical behavior.



FINDING NO. 4 – AAEU Specialists Do Not Contact Other Department Units
                and Agencies

As part of their evaluations of accrediting agencies, AAEU specialists do not contact other
Department units, state agencies, guaranty agencies, or others that may have pertinent information
on accredited institutions. GAO’s Internal Control Standards states “[e]ffective communications
should occur in a broad sense with information flowing down, across, and up the organization” and
“management should ensure there are adequate means of communicating with, and obtaining
information from, external stakeholders that may have a significant impact on the agency achieving
its goals".”

The regulations at 34 C.F.R. § 602.31(a)(2) and (3) require Department staff to solicit public
comment by publishing a notice of the review of the agency in the Federal Register and provide
copies of the notice to state licensing/authorizing agencies, other recognized accrediting agencies,
and other appropriate organizations. AAEU complied with this requirement. However, AAEU did
not require the specialists, as part of their evaluations, to contact the relevant state agencies, guaranty
agencies, or other Departmental units within the Office of Postsecondary Education, Federal Student
Aid, and the Office of Inspector General. State licensing/approving agencies may have collected
adverse information on institutions accredited by the accrediting agency under review. Other
Departmental units with policy and monitoring responsibilities for HEA, Title IV programs may
have relevant information on accredited institutions. Direct contact with these agencies and
Departmental units could alert AAEU specialists to weaknesses in accreditation standards and
accrediting agency’s procedures for monitoring and enforcing the standards at accredited
institutions.
ED-OIG/A09-C0014	                                                                     Page 17 of 29


Recommendation

4.1 	   We recommend that the Assistant Secretary for Postsecondary Education require that AAEU
        include in its procedures that specialists contact other Department units and selected state
        agencies prior to conducting evaluations of accrediting agencies for renewal of recognition
        by the Secretary.

OPE Comments

In its response to the draft report, OPE stated that the information provided through contacts with
Department units and state agencies is generally collected and maintained at the individual
institution level and that anecdotal information about a single school or a small number of schools is
insufficient to establish an accrediting agency’s pattern of behavior. OPE stated that, as an
alternative, it is evaluating available Departmental databases to determine if they contain data that
would be informative to the specialists. If useful information is identified, OPE will explore
generating reports from those databases for its specialists. OPE stated that it might also explore
obtaining information from databases maintained by state agencies.

OIG Response

We support OPE’s decision to evaluate information available on databases maintained by the
Department and state agencies, however, our recommendation remains unchanged. While anecdotal
information may not be sufficient to draw conclusions regarding an accrediting agency’s adherence
to the HEA and regulations, the information could provide valuable insight into areas of focus during
the evaluation.
ED-OIG/A09-C0014                                                                     Page 18 of 29




               OBJECTIVE, SCOPE, AND METHODOLOGY 



The objective of the audit was to evaluate AAEU’s management controls for ensuring that
accrediting agencies recognized by the U.S. Department of Education (1) have established standards
to address institutions’ success with respect to student achievement and measures of program length,
(2) monitor institutions’ adherence to the standards throughout their accreditation, and (3) take
consistent enforcement action when institutions are not in compliance with the standards.
We focused our review on AAEU's policies and procedures for evaluating accrediting agencies for
renewal of recognition by the Secretary. We reviewed the HEA and applicable regulations, OMB
Circular A-123 on Management Accountability and Control, and GAO’s Internal Control Standards
and Internal Control Management and Evaluation Tool. We also reviewed AAEU’s Guide to
Submitting a Petition for Recognition: Review Elements and Suggested Agency Documentation, and
Checklist for Analysis of Accrediting Agencies’ Petitions for Recognition. We interviewed the
Director for Accreditation and State Liaison Staff, the AAEU Unit Chief, and AAEU specialists.
We reviewed the findings presented in prior OIG reports on accrediting agencies.

To confirm that AAEU adhered to its policies and procedures for accrediting agency recognition, we
reviewed AAEU files and reports for 2 of the 6 regional accrediting agencies that were degree
granting and 2 of the 29 national accrediting agencies that provided institutional accreditation for
institutions participating in HEA, Title IV program. We also interviewed the AAEU specialists that
performed the reviews of the four selected accrediting agencies. We judgmentally selected the four
accrediting agencies that represented the agencies with the highest number of institutions accredited
within their respective categories. The four selected accrediting agencies are identified in
Attachment 1of the report. We compared the limitations and management control weaknesses
identified in the OIG reviews of the four selected accrediting agencies with the evaluation
conclusions presented in AAEU reports.

We performed fieldwork at the AAEU office in Washington, D.C. from February 26 through
March 1, 2002 and from June 17 to June 21, 2002. During March 2002 through January 2003, we
initiated and completed the reviews at the four selected accrediting agencies. We held an exit
briefing with AAEU officials on February 10, 2003. Our review was performed in accordance with
generally accepted government auditing standards appropriate to the scope of the review.
ED-OIG/A09-C0014                                                                     Page 19 of 29




              STATEMENT ON MANAGEMENT CONTROLS 


We assessed the system of management controls, policies, procedures, and practices applicable to
AAEU’s process for evaluating accrediting agencies’ standards for student achievement and
program length and the agencies’ monitoring and enforcement of those standards at accredited
institutions participating in HEA, Title IV programs. We performed our assessment to determine
whether AAEU’s processes provided a reasonable level of assurance that accrediting agencies
established the required standards, ensured that accredited institutions adhered to established
standards, and, took consistent enforcement action when institutions were noncompliant. For the
purpose of this report, we assessed and classified significant controls related to AAEU’s process for
evaluation accrediting agencies into the following categories:

          Conducting evaluations and reporting on petitions for renewal of recognition by the
           Secretary,
          Conducting evaluations of interim reports required by the Secretary, and
          Conducting reviews of proposed changes in standards and procedures submitted during
           the accrediting agency’s recognition period.

The management of AAEU is responsible for establishing and maintaining a management control
structure. In fulfilling this responsibility, judgments by management are required to assess the
expected benefits and related costs of control procedures. The objectives of the system are to
provide management with reasonable, but not absolute, assurance that accrediting agencies have
required accreditation standards and procedures to ensure institutions adhere to the standards, and
that enforcement action is taken when institutions are found to be noncompliant with the standards.

Because of inherent limitations in any management control structure, errors and irregularities may
occur and not be detected. Also, projection of any evaluation of the system to future periods is
subject to risk that procedures may become inadequate because of changes in conditions, or that the
degree of compliance with the procedures may deteriorate.

We concluded that AAEU does not have sufficient management controls to provide a reasonable
level of assurance that accrediting agencies established the required standards, ensured that
accredited institutions adhered to established standards, and took consistent enforcement action
when institutions were noncompliant. As discussed in the AUDIT RESULTS section, we found that
AAEU does not require regional accrediting agencies to establish quantitative student achievement
standards for institutions offering vocational education programs. We also found that AAEU has
limited written procedures and other guidance for use in conducting evaluations, does not require
specialists to fully document their determinations, has no formal supervisory review process, relies
on individual specialists’ evaluations and decisions for recognition recommendations, and does not
contact other Department units or other agencies as part of the review process.
ED-OIG/A09-C0014                                   Page 20 of 29




                     ATTACHMENT 1 



             Summary of OIG Suggestions Made to 

    Selected Accrediting Agencies for Enhancing Standards 

           and Strengthening Management Controls 

                                                                                                                                               Attachment 1
                                                                                                                                               Page 1 of 4
                        Summary of OIG Suggestions Made to Selected Accrediting Agencies
                         for Enhancing Standards and Strengthening Management Controls
                                 Regional #1                           Regional #2                       National #1                     National #2
                                                                                                    National Accrediting               Accrediting
                                                               Southern Association of                Commission of                Commission of Career
   Accrediting          North Central Association of
                                                                Colleges and Schools,              Cosmetology Arts and           Schools and Colleges of
    Agency                 Colleges and Schools
                                                               Commission on Colleges                    Sciences                      Technology
                            ED-OIG/A09-C0016
                                                                 ED-OIG/A09-C0018                    ED-OIG/A09-C0019               ED-OIG/A09-C0017
Last Renewal of
                                     1997                                  2001                              1999                            1999
Recognition

Standards             Develop standards that are              Revise its new standard          Require its Advisory             Eliminate the
addressing student   sufficiently concrete and specific to    for student achievement to        Committee on Validity and         “withdrawn employed in
achievement          permit the agency to determine           explicitly state that programs    Reliability to conduct            field” category of students
                     whether an institution is compliant      must fulfill the institution’s    quantitative analyses of          from the completion rate
                     or noncompliant.                         defined expected educational      institutions’ past completion,    formula. The inclusion of
                                                              results.                          licensure, and placement          these students overstates
                      Study the measures used in                                               rates as part of its evaluation   a program’s completion
                     assessment programs at institutions       Analyze the measures            to ensure that the minimum        rate since the students
                     with similar purposes and programs       used in assessments at            levels provide an adequate        did not complete the
                     and developing measures for              institutions with similar         and relevant measure of           educational program.
                     incorporation in the agency’s            programs and developing           educational quality.
                     standard for student achievement.        measures for incorporation in                                        Define a minimum
                                                              the agency’s standard for          Revise the completion rate      employment period for
                      Establish quantitative standards       student achievement.              formula by removing from the      acceptable placements.
                     for completion rates, job placement                                        list of exempt students those     Under its current
                     rates, and pass rates on State            Establish quantitative          students who failed to            procedures, employment
                     licensing examinations, as               standards for completion          maintain satisfactory             of one-day duration could
                     applicable, for certificate and degree   rates, job placement rates,       attendance and academic           be considered a
                     programs with vocational objectives.     and pass rates on State           progress, and students who        placement for purposes of
                      Provide additional guidance with       licensing examinations, as        completed the program             calculating the placement
                     actual examples of the types of          applicable, for vocational        outside 150 percent of the        rate.
                     student assessment measures and          education programs offered        course.
                     methods an institution might use for     by its accredited institutions.
                     a particular institutional mission and                                      Either revise the
                     purpose.                                                                   placement rate formula by
                                                                                                removing from the list of
                                                                                                                                        Attachment 1
                                                                                                                                        Page 2 of 4
                                 Regional #1                        Regional #2                      National #1                   National #2

                                                                                             ineligible students those
                                                                                             students who failed to take
                                                                                             the state licensing
                                                                                             examination or include a
                                                                                             separate minimum rate that
                                                                                             measures placement for all
                                                                                             students who complete the
                                                                                             program.

                                                                                              Define the type and period
                                                                                             of employment for
                                                                                             placements reported in
                                                                                             Annual Reports.

Standards             Describe the Carnegie formula in      Provide institutions with      None.                           Define amount of
addressing program   written guidance, explicitly stating   written guidance on “sound                                      outside preparation
length               that institutions should use this      and acceptable practices” for                                   expected for each
                     method and, if they do not, must       assigning credit hours to                                       assigned credit hour.
                     submit written justification for any   programs. The guidance
                     deviation.                             should include the agency’s
                                                            formulas for assigning credit
                      Provide guidance on                  hours, required levels of
                     documenting justifications for         outside preparation, and a
                     deviations from the Carnegie           requirement that institutions
                     method.                                submit a written justification
                                                            for any deviation from the
                      Include in its policy addressing     guidance.
                     systematic program of review a
                     statement that the advisory panel
                     that meets every five years will
                     comprehensively review each
                     accreditation standard individually,
                     as well as the standards as a whole.
                                                                                                                                                  Attachment 1
                                                                                                                                                  Page 3 of 4
                                    Regional #1                            Regional #2                       National #1                    National #2

Management               Provide peer reviewers specific          Require peer evaluators to       Include, as part of its         Include a question on
controls for ensuring   guidance for evaluating institutions’     confirm the institution used      Annual Report Verification       the site visit checklist on
adherence to            assessment programs with respect          SACS’ formulas for                Study, a verification of         whether the institution
standards               to student achievement, including         determining credit hours and      supporting documentation for     adhered to the guidance
                        actual examples of the types of           report on the validity of         the number of “exempt            provided in its Application
                        student assessment measures that          justifications for any            students” reported by            for Clock Hour to Credit
                        are appropriate for a particular          deviation.                        institutions.                    Hour Conversion when
                        learning outcome and suitable                                                                                the institution determined
                        benchmarks.                                Require peer evaluators to       Have site visit teams          the credit hours for each
                                                                  report on institutional success   include in their Team Reports    of its programs.
                         Require institutions to articulate      with respect to student           the results of accrediting
                        in the self-study report the definition   achievement for each              agency staff’s verification of
                        of success with respect to student        educational program and the       Annual Report data and the
                        achievement and student outcome           institution overall.              basis for concluding that
                        results.                                                                    institutions met the standards
                                                                   Implement procedures to         for student achievement and
                         Require peer reviewers to               monitor institutions’             measure of course length.
                        examine and report on institutions’       adherence to the standards
                        success with respect to student           for student achievement            Have the designated and
                        achievement.                              during the accreditation          testing evaluation teams
                                                                  period. For example,              utilize and reconcile any
                         Require peer reviewers to               consider adding a                 conflicting findings to ensure
                        confirm the institution’s use of the      requirement in its substantive    that the institution addresses
                        Carnegie formula for determining          change policy that institutions   all identified problems.
                        credit hours and report on the            inform the accrediting agency
                        validity of justifications for any        of changes in their systems
                        deviation.                                for determining institutional
                                                                  effectiveness. Also, consider
                         Ensure that its substantive             having institutions provide the
                        change policies are consistent with       results of their assessments
                        regulatory requirements by                of student achievement for
                        including in its policy changes from      each educational program as
                        clock hours to credit hours,              part of their annual reports.
                        substantial increases in clock or
                        credit hours, and changes in
                        delivery method for all programs,
                        not just distance education
                        programs.
                                                                                                                                           Attachment 1
                                                                                                                                           Page 4 of 4
                                     Regional #1                         Regional #2                  National #1                    National #2

 Management              We could not determine the              None.                        Define the “special             Define “good cause”
 controls for ensuring   effectiveness of the accrediting                                    circumstances” that NACCAS       for extending time limits
 enforcement of          agency’s management controls for                                    would consider when deciding     for institutions to come
 standards               ensuring consistent enforcement                                     whether to withdraw              into compliance with
                         action is taken when institutions are                               accreditation for institutions   standards.
                         not in compliance with established                                  not meeting its minimum
                         standards for student achievement                                   completion, licensure, and
                         and measures of program length.                                     placement rates.
                         The agency’s standards are general
                         in nature, subjective judgments                                      Utilize and reconcile areas
                         were used to determine adherence                                    where there are differences in
                         to standards, and the agency’s                                      the conclusions reached by
                         institutional files contained                                       designated and testing file
                         insufficient documentation. Under                                   review teams when making
                         current procedures, the agency has                                  accrediting decisions.
                         not needed to take enforcement
                         action, because institutions have not
                         failed or could not fail these
                         standards.


NOTE: 	The OIG reviews were limited to standards addressing student achievement and program length and the management controls for monitoring
       accredited institutions’ adherence to those standards and taking enforcement actions when institutions were found to be noncompliant. The cited OIG
       Management Information Reports, available at www.ed.gov/offices/OIG/, provide more information on the OIG suggestions.
ED-OIG/A09-C0014                                        Page 25 of 29




                           ATTACHMENT 2 



                   OPE Comments on the Draft Report 

                                                                                                                          ,

.~




     ~.             't,i
     ~~                              UNITED STATES DEPARTMENTOF EDUCATION
     ~                                             OFFICEOFPOSTSECONDARY
                                                                      EDUCATION

                                                               APR 2 9 2003                                   THEASSISTANT
                                                                                                                         SECRETARY




          Ms. Gloria Pilotti

          Regional Inspector General for Audit

          501 I Street, Room 9-200

          Sacramento, CA 95814


          Dear Ms. Pilotti:

          Thank you for the opportunity to respond to the Office of Inspector General's draft audit
          report, Office of Postsecondary Education, Accrediting Agency Evaluation Unit's Review
          of Selected Accrediting Agency Standards and Procedures (ED-OIG/A09-CO014).

          I want to note at the outset that much of our reaction to this audit report is shaped by the
          proximity of reauthorization of the Higher Education Act (HEA). We fully expect
          Congress to complete revisions to HEA before it adjourns next year. In addition, we
          believe that reauthorization could bring significant changes in the requirements placed
          on accrediting agencies and, consequently, in the work performed by the Accrediting
          Agency Evaluation Unit (AAEU). We are, therefore, hesitant to commit time and
          resources to major changes in interpretations of law and regulations and in work
          processes when those activities in all likelihood would need to be revisited in the wake
          of reauthorization.

          Let me now turn to specific findings and recommendations in the audit report.

          Finding No.1 -OIG found that AAEU does not require regional accrediting agencies to
          establish quantitative student achievement standards for vocational education programs
          imbedded in schools that have institutional accreditation. OPE acknowledges that
          requiring the reporting of this data would provide useful information on program quality
          to accrediting agencies and to the public. But implementing this change would reverse
          ten years of interpretation of statute and regulations. We have reviewed this issue and
          believe that the statute and regulations are deliberately non-specific on this point. We
          believe that both the current interpretation and OIG's suggested interpretation are
          permissible under current law and that the decision as to which to implement is a policy
          matter. In light of this, OPE prefers to defer action in this area pending reauthorization
           of HEA to see if Congress provides a clearer indication of the requirements to which
          regional accrediting agencies are to be held. Therefore, OPE does not concur with
          Finding No.1 or with the recommendations under it.




                                                         1990 K STREET,N.W. WASHINGTON,
                                                                                      D.C. 20006

                           Our mission is to ensure eaual access to education and to vromote educational exceUence throUGhout the Nation.


            ..""'",",,'"                                                                                                                    "~,I,"ljj
.




     Finding No.2 -OIG found that MEU has limited written procedures and
     documentation of its work procedures and processes. OPE believes that this finding
     raises an important issue to the extent that it bears on providing guidance to accrediting
     agencies and insuring that Department interpretations of statute and regulations are
     accurate and consistent. We think several of the OIG's recommendations should and
     ?an be implemented. However, some of the recommendations would significantly
     Increase staff workload without contributing to appreciable improvements in the quality
     of staff analyses and oversight of accrediting agencies. Therefore, OPE partially
     concurs with Finding No.2.

     OPE partially concurs with recommendation 2.1, and the ASL Director will work with the
     MEU Branch Chief and staff to develop guidance for each of the criteria bearing on the
     evaluation of an accrediting agency. This activity will include, to the maximum extent
     possible, creating definitions and examples of general terms such as "appropriate
     threshold for quality." This activity will lead to revisions in the guidance provided to
     accrediting agencies and in the checklist used by staff analysts in their evaluations. For
     several reasons we are reluctant to stipulate the number of site visits and agency file
     reviews necessary for an evaluation. The need for these actions varies with the
     particular circumstances of each agency under review. The ability to conduct these
     activities is affected by factors, such as budget, that are beyond the control of OPE.
     Often the need for site visits and file reviews only becomes apparent after the review of
     the agency is underway and specific problems are identified.

     We believe that the actions proposed in response to recommendation 2.1 render those
     in 2.2 redundant. Interim reports result from an agency's failure to comply with the
     provisions of one or more criteria. The guidance developed for each of the criteria
     would also apply to an analyst's review of an interim report. This would also apply in
     cases of substantive changes in an agency's standards and procedures during the
     period of recognition. Guidance to staff will make it clear that a review against the
     identified tests is required whenever an agency makes changes of this nature.

     The recommendations under 2.3 would also be addressed in the proposed response to
     2.1. It is our intent that our revised guidance address all of the Secretary's Criteria for
     Recognition.

     OPE does not concur with recommendation 2.4. While we appreciate the utility of
     internal controls and acknowledge that they may facilitate future audits, they would
     significantly increase staff workloads while not necessarily adding to the quality of staff
     analyses. In the past, as OIG noted in its report, MEU staff prepared extensive
     analyses that addressed all criteria. These analyses averaged 80 to 120 pages in
     length. Members of NACIQI requested that the staff analyses be streamlined, which led
     to the current format that provides an overview of the agency and highlights areas of
     concern or non-compliance. We believe that the multiple levels of supervisory review of
     draft analyses and the multi-step decision-making process followed insure appropriate
     identification and review of those areas where the analyst determines the agency to be
     in compliance.
                                                       'O"   ,                            """,,   m,

      -.





                 OPE concurs with recommendation 2.5. Staff analysts will be required to prepare a
                 brief evaluation plan for each agency addressing the projected number of site visits and
                 file reviews and any issues with the agency identified during the current recognition
                 period.

                 OPE reserves comment on recommendation 2.6. Our concern is that checklists and
                 other documents retained in files could be viewed as public documents and be subject
                 to FOIA requests. We are seeking an opinion from OGC on this matter. As OIG is
                 aware, the initial staff analysis is treated as a draft and, as such, is not subject to FOIA
                 requests. This approach is consistent with our view that the intent of this process is to
                 work with the agency to bring them into compliance with the criteria and protects the
                 agency from the public release of potentially embarrassing information that is
                 subsequently corrected.

                 Finding No.3 -OIG found that AAEU had no documented supervisory review process
                 and relies on individual analyst's evaluations. We concede that the supervisory review
                 process lacks formal documentation but wish to note that a substantial review of the
                 draft analyses does take place. The AAEU Branch Chief conducts an initial review with
                 the staff analyst of each draft analysis. Both the Director of ASL and the Executive
                 Director of NACIQI subsequently review the drafts.

                 IG also recommends that more than one staff analyst be assigned to site visits to
                 agencies and site reviews of institutions. As was noted earlier in my comments, these
                 decisions are better made on a case by case basis.

                 In response to recommendation 3.1, the Director of ASL will develop procedures for
                 documenting supervisory reviews of draft staff analyses. OPE does not concur in
                 recommendation 3.2.,




~!:




.~          '"
                                                                                             " c.
~.   .





          Finding No.4 -OIG finds that MEU analysts do not contact other Department units or
          agencies in gathering information used in evaluating accrediting agencies. The primary
          difficulty in accessing these external sources concerns the nature of the data. The
          information available from these sources is generally collected and maintained at the
          level of individual institutions, while the work of MEU requires data aggregated at the
          level of the accrediting agency. Anecdotal information about a single school or a small
          number of schools is insufficient to establish a pattern of behavior by an agency that
          may be noncompliant with the Secretary's Criteria.

          The Accreditation and State Liaison Unit (ASL) is currently evaluating Department
          databases, such as PEPS, GAPS, and IPEDS, to determine if they contain data that
          would be informative to MEU analysts. If useful data are identified, ASL will explore
          the feasibility of extracting data from these Department sources to generate reports that
          can further inform analysts about agencies under review. If we believe it feasible to
          move forward with this activity, we anticipate completion by the end of this calendar
          year.

          Tapping into databases maintained by state agencies raises issues in addition to those
          noted above. The Department would need to secure permission to access this
          information from each state. There are also issues of security of the data and software
          compatibility that would need to be resolved. We view this as a second phase activity to
          be undertaken after successfully accessing Department databases.

          OPE partially concurs with Finding No.4.

          Please let me know if we can provide any additional clarification regarding this
          response.

                                                     Sincerely,



                                                     c5~~~~
                                                     Sally L. ~roup




                  ,
